No. 20-7868
In the
Supreme Court of the United States

Douglas Kelly,
Petitioner,
v.
United States of America,
Respondent,
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit
CERTIFICATE OF SERVICE WITH FILING BY MAIL
Pursuant to this Court’s Rules 29.2 and 29.5(b), I hereby certify that I am a
member of the Bar of this Court, representing Respondent, Anthony Sistrunk. I
further certify the following:
1. On May 10, 2021 and within the time permitted by the Rules of this Court, I
mailed a single copy of the enclosed Brief of Respondent, Anthony Sistrunk, in
Support of Petition for Writ of Certiorari for filing, printed in 8½” x. 11” paper
and formatted under this Court’s Rule 33.2, by U.S.P.S., priority mail, postage
prepaid and properly addressed to the Clerk of this Court.
2. I emailed the same document to supremectbriefs@usdoj.gov.
1

3. I further certify that on the same date, I served the documents upon the
following persons:
a) Richard Maffett, Esq., Attorney for Petitioner, 2201 North Second Street,
Harrisburg, PA 17110, (717) 233-4160.
b) Elizabeth D. Prelogar, Esq., Acting Solicitor General, Attorney for
Respondent, Room 5614, Department of Justice, 950 Pennsylvania Ave.,
N.W., Washington, D.C. 20530, (202) 514-2201;
c) Respondent, Anthony Sistrunk, #72326-067, Open in Presence of the
Inmate, USP Pollock, PO Box 2099, Pollock, LA 71467.
4. As a result, I certify that pursuant to this Court’s Rule 29.5, all parties required
to be served, have been served.
Respectfully submitted,
Daniel M. Myshin, Esq.
Counsel of Record
P.O. Box 33
Hummelstown, PA 17036
717-541-5451
dan_myshin@myshinlaw.com
Attorney for Respondent
Anthony Sistrunk

2

